CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on the 26th day of November, 2019, I filed the
foregoing Blanket Consent electronically through the CM/ECF system, and a copy was
served on all counsel of record in the above-captioned matter by electronic means
through the Court’s ECF system:
Randall J. Bakke
Bakke Grinolds Wiederholt
300 West Century Avenue
P.O. Box 4247
Bismark, ND 58502-4247
rbakke@bgwattorneys.com
702-751-8188
Attorneys for Respondents Joe Wetch,
Aubrey Fiebelkorn-Zuger, and Tony Weiler

James Nicolai
Office of Attorney General
Civil Litigation Division
500 North 9th Street
Bismarck, ND 58501
jnicolai@nd.gov
702-328-3640
Attorneys for Respondent Penny Miller

/s/ Timothy Sandefur
Timothy Sandefur*
Jacob Huebert
*Counsel of Record
GOLDWATER INSTITUTE
Scharf-Norton Center for
Constitutional Litigation
500 E. Coronado Road
Phoenix, AZ 85004
Ph: 602-462-5000
litigation@goldwaterinstitute.org
Attorneys for Petitioner

